<html>
<title> - REVIEWING AMERICA'S COMMITMENT TO THE REFUGEE CONVENTION: THE REFUGEE PROTECTION ACT OF 2010</title>
<body><pre>[Senate Hearing 111-599]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-599
 
 REVIEWING AMERICA'S COMMITMENT TO THE REFUGEE CONVENTION: THE REFUGEE 
                         PROTECTION ACT OF 2010

=======================================================================



                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2010

                               __________

                          Serial No. J-111-93

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
58-223                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feingold, Hon. Russell D., A U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    68
Leahy, Hon. Patrick J. Leahy, a U.S. Senator from the State of 
  Vermont........................................................     1
    prepared statement...........................................   127
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     5

                               WITNESSES

Giantonio, Patrick, Executive Director, Vermont Immigration and 
  Asylum Advocates, Burlington, Vermont..........................     9
Glickman, Dan, President, Refugees International, Washington, DC.     7
Timofeyev, Igor V., Associate, Paul, Hastings, Janofsky & Walker, 
  LLP, Washington, DC............................................    11

                         QUESTIONS AND ANSWERS

Responses of Patrick Giantonio to questions submitted by Senator 
  Leahy..........................................................    22

                       SUBMISSIONS FOR THE RECORD

Advocates for Human Rights, Minneapolis, Minnesota, statement....    35
American Civil Liberties Union, Laura Murphy, Director and Joanne 
  Lin, Legislative Counsel, Washington, Legislative Office, 
  Washington, DC, joint statement................................    47
American Jewish Committee, Richard T. Foltin, Esq., Director, 
  National and Legislative Affirs, Office of Government and 
  International Affairs, Washington, DC, statement...............    53
Center for Gender & Refugee Studies, University of California, 
  Hastings College of the Law, San Francisco, California, 
  statement......................................................    56
Church World Service, Erol Kekic, Director, Immigration and 
  Refugee Program, New York, New York, letter....................    67
Frelick, Bill, Refugee Program Director, Human Rights Watch, New 
  York, New York, statement......................................    70
Giantonio, Patrick, Executive Director, Vermont Immigration and 
  Asylum Advocates, Burlington, Vermont..........................    77
Glickman, Dan, President, Refugees International, Washington, DC.    88
Hebrew Immigrant Aid Society (HIAS), Melanie Nezer, Senior 
  Director, Washington, DC, statemenet...........................    94
Heartland Alliance National Immigrant Justice Center, Mary Meg 
  McCarthy, Executive Director, Chicago, Illinois, statement.....   101
Human Rights First, Washington, DC, statement....................   107
Immigration Equality Action Fund, Washington, DC, statement......   113
International Rescue Committee, Washington, DC, statement........   116
Karadaghi, Pary, President, Kurdish Human Rights Watch, Inc., 
  Fairfax, Virginia, letter......................................   121
Lamm, Carolyn B., American Bar Association, Washington, DC, 
  statement......................................................   122
Letter of Support, Signed by 86 organizations and 97 individuals.   129
Lutheran Immigration and Refugee Service, Washington, DC, 
  statement......................................................   145
Migration and Refugee Services, U.S. Conference of Catholic 
  Bishops, Washington, DC, statement.............................   147
Miller-Muro, Layli, JD, MA, Executive Director, Tahirih Justice 
  Center, Falls Church, Virginia, statement......................   153
National Association of Immigration Judges, Dana Leigh Marks, 
  President, San Francisco, California, statement................   160
Physicians for Human Rights, Cambridge, Massachusetts, statement.   165
Refugee Women's Network, Inc., Decatur, Georgia, statement.......   169
Survivors of Torture International, San Diego, California, 
  statement......................................................   171
Timofeyev, Igor V., Associate, Paul, Hastings, Janofsky & Walker, 
  LLP, Washington, DC, statement.................................   173
United Nations High Commissoner for Refugees, Washington, DC, 
  statement......................................................   179
United States Commission on International Religious Freedom, 
  Washington, DC, statements.....................................   181


 REVIEWING AMERICA'S COMMITMENT TO THE REFUGEE CONVENTION: THE REFUGEE 
                         PROTECTION ACT OF 2010

                              ----------                              


                        WEDNESDAY, MAY 19, 2010

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 10 a.m., Room 
226, Dirksen Senate Office Building, Hon. Patrick J. Leahy, 
Chairman of the Committee, presiding.
    Present: Senators Franken and Sessions.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning, everybody. Welcome, and thank 
you for being here.
    Before we get to the hearing, and because a number of 
members of the press have asked me, I am announcing that the 
Senate Judiciary Committee will hold the confirmation hearing 
on the nomination of Solicitor General Elena Kagan to be an 
Associate Justice of the United States Supreme Court beginning 
on June 28. We will do that so that the hearing can be 
concluded before the July recess.
    I have reached out, of course, and talked with Senator 
Sessions, the Committee's Ranking Republican, to discuss the 
scheduling of this hearing. We met again yesterday. I will let 
Senator Sessions speak for himself.
    I am sure some would like more time. On the other hand, 
some would like to do it earlier. But we did work cooperatively 
to send a bipartisan questionnaire to the nominee last week, 
something sent from both Senator Sessions and myself, and we 
received the response yesterday.
    Yesterday, the two of us also joined in sending a letter to 
the Clinton Library asking for files from the nominee's work in 
the White House during the Clinton Administration. Of course, I 
will continue to consult with Senator Sessions on that material 
as we get it.
    I know that we gained a lot of respect for the conduct of 
the Sotomayor hearing and for the Roberts hearing. I would like 
to follow that example, because last year we proceeded with the 
hearing on the nomination of Justice Sotomayor 48 days after 
she was designated. This year, I am scheduling the Kagan 
hearing 49 days after the nomination was announced.
    Justice Stevens, of course, announced on April 9 that he 
would be leaving the Court. He noted, quote, ``It would be in 
the best interest of the Court'' to have his successor 
appointed and confirmed well in advance of the commencement of 
the Court's next term.
    I wholeheartedly agree with Justice Stevens; it is in the 
best of the Court and, of course, of the country.
    One person criticized this nomination, saying she has not 
been a judge and does not have years of opinions to be 
considered. Well, actually, that should make preparing for a 
hearing less labor-intensive and must make it easier.
    But she was confirmed just a year ago for Solicitor 
General, so much of this material we looked at when we 
considered her record last year. She was then, by a bipartisan 
majority vote, confirmed to serve as the Solicitor General of 
the United States, a position often called the tenth justice.
    This last weekend, a number of Republican Senators said 
that Solicitor General Kagan's answers at the confirmation 
hearing were going to be the key. I would encourage everybody 
to come to the hearing with an open mind, listen to her answers 
to those questions. We will make sure that every Senator, on 
both sides of the aisle, have ample time to ask the questions 
they want.
    But, also, the hearing will allow the American people to 
evaluate this nominee. The hearing is an opportunity for all of 
us to ask questions and raise concerns and evaluate the 
nomination.
    The Supreme Court justices are there serving, representing 
all 300 million Americans, but the Senators are the only 100 
Americans who get to vote one way or the other on this 
nomination. And on this Committee, we are the ones that have to 
vote first. Then the Senate has to vote. I think that every one 
of us has to take that responsibility seriously, standing in 
lieu of 300 million of our fellow Americans.
    President Obama handled the selection process with the care 
the American people expect and deserve. He has met with 
Senators from both sides of the aisle.
    I suggested to the President what I have suggested to every 
President, Republican or Democratic, to look for somebody 
outside the judiciary monastery. He did. Some of these 
experiences were not limited to those in the Federal appellate 
courts.
    So I will note that the President has consulted. We asked 
him to, and I am glad he has.
    Before I make my statement about the hearing we have today, 
let me yield to Senator Sessions.
    Senator Sessions. Mr. Chairman, you have been very gracious 
with your time, and we have talked about this on a number of 
occasions and had a very productive and cordial meeting 
yesterday to go into some depth about your vision for the 
hearings and mine.
    And I think, fundamentally, we share the view that we 
should conduct a thorough and effective examination, one that 
fulfills our constitutional role and makes the Senate proud, so 
that we can proud of it, that we have fulfilled our 
responsibilities.
    Senator Kaufman has noted that we get along remarkably well 
around here, but sometimes we just disagree about how things 
ought to be done.
    I know that we had asked that we be able to have the 
hearing after the recess just to give our colleagues more time 
to study the record and maybe prepare their remarks and the 
questions they would like to ask. But the pace would be 
consistent with last year's Sotomayor hearing, but we had a 
shorter time period. The President did give us an extra 2 weeks 
this time to consider the nomination.
    I told him and I have told Senator Leahy that I thought we 
could reasonably complete this hearing before the August 
recess. It is what the President asked me at the White House 
and I told him I believed we could do that and I committed to 
try to achieve that.
    We will try to do our best to conduct an effective hearing, 
even if I would have preferred a little more time.
    I would say this. Clearly, a Supreme Court nominee for any 
seat is exceedingly important. The American people are 
concerned about their Court. They are concerned about 
effectiveness of law in America. They are concerned that 
constitutional principles are being eroded; that we are not 
recognizing the fact that our government is a limited 
government.
    And we can have a fine nominee in many different ways, but 
if they are not committed to the limited role of a Federal 
judge, if they are not aware that they must serve, as their 
oath says, under the Constitution, not above it, then they are 
not qualified to serve on the bench.
    So this will be the nature of the inquiry. I hope it is a 
high level inquiry. We will discuss judicial activism, 
faithfulness, the plain words of the Constitution, and I expect 
it to be a vigorous and important hearing.
    Mr. Chairman, one of the things I appreciate is you renewed 
your commitment that we would have a good 30-minute first 
round. I appreciate you doing that. That does allow more 
engagement with the nominee.
    I do not think it was abusive last year in any way with 
Sotomayor, and I think we should do that again. So I think we 
have started off on a pretty good basis.
    I look forward to working with you within the realms of 
what we can agree on and what we may not be able to agree on to 
complete the process before the August recess and in a way that 
makes the Senate and our country proud of how we have conducted 
the hearings.
    Chairman Leahy. I appreciate those kind words I think both 
you and I realize that Senators do have to have time to ask 
questions. I do not think anybody is going to waste time asking 
repetitious questions, and we will make sure they have that 
time.
    To tell the rest of you, I did suggest, semi-facetiously, 
to Senator Sessions that we should do the hearing as a field 
hearing in Vermont. At that time of the year, it would be nice, 
but I do not think that is going to be possible.
    So all the members of the press who are already getting 
their expense accounts ready to go to Vermont for a week--that 
is not going to happen.
    Now, on today's hearing, earlier this year, we marked the 
30th anniversary of the Refugee Act. In the years since that 
landmark legislation was enacted, the law has evolved in ways 
that place, I believe, unnecessary and harmful barriers before 
genuine refugees and asylum-seekers.
    So I introduced the Refugee Protection Act of 2010, S. 
3113. It brings the United States into compliance with the 
Refugee Convention. It will restore our Nation as a beacon of 
hope for those who suffer from persecution around the world. 
And I thank Senators Levin, Durbin, Akaka, and Burris for 
joining as cosponsors.
    I supported the Refugee Act in the 96th Congress. I voted 
for it when it passed the Senate. When the Senate debated the 
bill, Senator Ted Kennedy, the longest-serving member of the 
Senate Judiciary Committee in history, spoke of his dual goals 
to welcome homeless refugees to our shores, thereby embracing 
one of the oldest and most important themes in our Nation's 
history. The Act gives statutory meaning to our National 
commitment to human rights and humanitarian concerns.
    We lost Senator Kennedy last year, but we can honor his 
memory in one of America's greatest traditions by carrying 
forth the mantel of refugee protection.
    Our Act corrects misinterpretations of law that limit 
access to safety in the United States for asylum-seekers. The 
legislation contains provisions from a bipartisan bill I 
introduced in the 106th and 107th Congresses to correct the 
harshest and most unnecessary elements in the Illegal 
Immigration Reform Act of 1996, because that law had tragic 
consequences for asylum-seekers.
    Finally, our current proposal modifies the immigration 
statute to ensure that innocent persons with valid claims for 
protection are not unfairly barred from the United States by 
laws enacted after September 11, 2001 to prevent terrorists 
from manipulating our immigration system.
    I think we can do both. We can correct the law and protect 
refugees without diluting the bars to admission for dangerous 
terrorists and criminals.
    In the years since the Refugee Act was enacted, over 2.6 
million refugees and asylum-seekers have been granted 
protection in the United States. I am proud that my home State 
of Vermont, a state of only 660,000 people, assisted asylum 
applicants with their requests for protection and we welcomed 
refugees through resettlement programs.
    More than 5,300 refugees have been resettled in Vermont 
since 1989 from countries as diverse as Burma, Bhutan, Somalia, 
Sudan, Bosnia, and Vietnam.
    One of our witnesses today is Patrick Giantonio, Executive 
Director of Vermont Immigration and Asylum Advocates. He is one 
of many Vermonters who put in countless hours and days and 
evenings and weekends to help victims of persecution win 
protection and build new lives in our state and our country. 
And I cannot thank you enough for what you do--what you do for 
them, what you do for the state.
    I want to also welcome Dan Glickman, who was recently 
appointed the President of Refugees International. Dan has been 
a friend for decades. We worked together when he was a member 
of the House of Representatives, when he served as Secretary of 
Agriculture in the Clinton Administration; more recently, as 
President of the Motion Picture Association of America.
    He has devoted years of his life to fighting hunger and 
advocating for under-served populations, and now he has taken 
on a new challenge in protecting refugees around the world.
    And our third witness will be Igor Timofeyev. Did I come 
close to pronouncing that right?
    Mr. Timofeyev. It was perfect, Mr. Chairman.
    Chairman Leahy. Thank you. Mr. Timofeyev served as a 
Special Advisor on Refugees and Asylees at the Department of 
Homeland Security during the Bush Administration. Of course, we 
welcome him.
    Our nation is a leader among the asylum-providing 
countries. Our communities have embraced refugees and asylum-
seekers, welcoming them as Americans, and our laws should 
reflect America's humanitarian spirit.
    I know that is what brought my maternal grandparents from 
Italy to the United States and Vermont, and so many of us, our 
grandparents or great-grandparents.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you. And I want to thank our 
witnesses for being here today to talk about this important 
issue. We are, as a nation, a beacon of hope for many across 
the globe who have suffered unspeakable injustices, many who 
have had their lives threatened.
    I am proud to live in a nation that is so welcoming of 
those who are facing persecution. America is a leader in the 
world in that issue, and we do provide safe haven to so many 
who their lives may be threatened.
    I note that for 2010, the number of people who could be 
allowed into the country as refugees is 80,000, as refugees. 
This speaks to the generous nature of our immigration system. 
Probably 10 percent of the people who enter our country, at 
least, are asylees or refugees, and I believe this policy will 
help change the lives for a lot of those people in a dramatic 
way.
    Over 5,000 refugees, for example, have been resettled by 
the Catholic Social Services Refugee Resettlement Program in 
Alabama in recent years. The goal of this program is to assist 
refugees in becoming independent, self-sufficient, self-
supporting members of the community, and I am proud of the work 
that they have done.
    I also think that we have some particular responsibility to 
those who suffer for battling for freedom in their countries, 
particularly those who have been in some way allied with the 
United States and whose lives are at risk for those very 
qualities.
    So we can be proud of our history, but we need to be 
diligent in our analysis of any proposal that seeks to change 
the law by which people are admitted into the United States.
    The legislation recently introduced by our Chairman seeks 
to amend many aspects of the current program. That piece of 
legislation is the basis for this hearing, and I am grateful 
that we have the opportunity to hear what this panel has to 
say.
    I do have concerns about some of the provisions in the 
legislation and I hope we can gain insight today.
    I want to point out a few provisions that are problematic 
to me. As we read it, the bill would change the definition of 
asylum-seeker to include any alien who simply indicates an 
intention to apply for asylum, regardless of how long they have 
been in the country or how frivolous their claim might be; and, 
indeed, we do have a lot of frivolous claims.
    We have a number of people who, for one reason or another, 
desire to come to the United States and they seek to use this 
vehicle to place themselves ahead of the normal process. And I 
am not saying that may not have had some difficulties back 
home, but it may well not reach the definitional level of an 
objective and good statute with regard to refugees and asylees.
    This provision that I refer to could have massive 
implications for our court system. The legislation also seeks 
to eliminate the current law that mandates a 1-year waiting 
period after arrival before an alien can seek asylum.
    We recently dealt with this issue in another piece of 
legislation, but that bill kept the 1-year waiting period, and 
it did pass out of this Committee. So we did not change it in 
our previous reform effort.
    This bill would allow, in addition, any alien to apply for 
asylum at any time after arriving in the United States, which 
could place an even heavier burden on our overwhelming caseload 
for USCIS.
    The bill would grant lawful permanent resident status, 
permanent resident status, to refugees upon admission, a 
dramatic departure from the 1 year they must currently wait 
while background checks are completed.
    These provisions would make it much more difficult to 
terminate the status of an alien who committed fraud. Once they 
become a legal permanent resident, they are given quite a 
number of legal rights, if they came into the country as a 
refugee or asylee.
    Now, I understand the desire to quickly and efficiently 
process legitimate cases, but these changes will lead to 
increased fraud, I am certain, in these categories of visas and 
further add to the already substantial backlog that we are 
wrestling with.
    The most troubling provision in the bill seeks to 
dramatically modify the definitions of those barred from 
entering the country based on the involvement in a terrorist 
organization, either directly or through offering material 
support, by revising the definition of terrorist activity so 
that it no longer applies solely to conduct considered criminal 
in the alien's country of origin or the United States.
    The bill would bar admission only to conduct that is 
designed to coerce or intimidate, and, also, punishable as a 
crime. This is a change in the law.
    Furthermore, the bill seeks to eliminate the bar to spouses 
and children of those who are knowingly involved in terrorist 
activities.
    These are some of the concerns I have. I look forward to 
working with the Chairman and our Committee to see if we can 
make constructive suggestions. But I would just say it is a 
fact that we have almost 100,000 people a year, 10 percent-
plus, probably, people lawfully entered into our country who 
come under one of the programs of asylee or refugees.
    I think that we should have that kind of--I am not 
necessarily complaining about that number. In some years, that 
is probably well justified. What I do say is that it is a 
program that can be abused. It had a good bit of abuse, and we 
do need to make sure that the processes work effectively to 
provide entrance to those who are legitimately entitled to it 
and can identify those who are not.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you very much. As I mentioned in my 
opening statement, Dan Glickman recently became President of 
Refugees International. He served in the House of 
Representatives for 18 years; was Secretary of Agriculture 
under President Clinton; and always worked to combat hunger and 
protect vulnerable populations.
    I told Secretary Glickman that I felt Refugees 
International was lucky to have him join their ranks.
    I thank you for your service on behalf of refugees, and the 
floor is yours.

      STATEMENT OF HON. DAN GLICKMAN, PRESIDENT, REFUGEES 
                 INTERNATIONAL, WASHINGTON, DC

    Mr. Glickman. Thank you very much, both Senator Leahy and 
Senator Sessions, for hosting this hearing and for your 
kindness to me in the myriad roles I have had over the last 
several years.
    I recall a meeting in Senator Sessions' office on I think 
it was film piracy not too long ago. And, of course, we have 
one of the great film stars of all time in Senator Leahy.
    [Laughter.]
    Mr. Glickman. Let me say, I have been involved in this 
great organization for only about six weeks. So this is the 
first time I have had a chance to testify on these issues.
    Largely, Refugees International deals with the conditions 
and plight of refugees and displaced people worldwide, and 
focusing on the humanitarian problems that they deal with.
    This legislation largely deals with domestic issues, and we 
are also very concerned about that and we have a few things 
that we want to add to the debate. The U.S. has a long and 
proud history of providing protection to refugees, including 
the Hmong refugees who fought with us in Vietnam, Soviet Jews, 
Iraqis who were displaced during the U.S.-led war, and others 
who seek an opportunity to rebuild their lives.
    After September 11, shifts in security procedures and 
admission requirements contributed to a dramatic decrease in 
the number of refugees admitted to our country. We went from 
100,000 per year through the early 1990s to fewer than 27,000 
in 2002.
    However, since that time, there has been an upward trend, I 
think, as Senator Sessions talked about. In 2009, we admitted 
about 75,000 refugees. But I believe the United States, the 
world's leading humanitarian actor, the leader in the world on 
these issues, can continue to do better.
    This bill will help us do the right thing by creating a 
more efficient and fair process for providing safe haven for 
the world's most vulnerable, and we can do this--and I want to 
emphasize this as a former member of the House and former 
government official--we can do this without compromising our 
ability to keep bad actors from entering the country, because 
that is, obviously, one of the great challenges that we have to 
deal with.
    There are four provisions of the bill that I want to 
highlight today, but I want to particularly emphasize the issue 
of statelessness, which is my last point.
    I assume the entire statement, written statement, will 
appear in the record, Mr. Chairman.
    Chairman Leahy. It will.
    Mr. Glickman. So one provision will enable the Secretary of 
State to designate certain refugee groups eligible for an 
expedited admissions process. Today, anyone trying to find 
refuge here must prove refugee status, even if we know he is an 
Iraqi who helped the U.S. fight against Saddam Hussein or that 
person has spent 10 years in a Chad refugee camp.
    The ability to give certain groups refugee status will 
allow expedited interviews and streamlined consideration for 
admission to the U.S., and, meanwhile, the Department of 
Homeland Security can focus on each individual's admissibility 
and security issues rather than on reestablishing that each 
individual meets the refugee definition.
    Another critical provision will prevent victims of 
terrorism from being defined as terrorists. Through unintended 
consequences of the USA PATRIOT Act, our country denies entry 
and protection to thousands of refugees and asylum-seekers with 
bona fide claims.
    Our staff travels the world often and meets with men and 
women who have been terrorized into giving what little they 
have to armed groups. That does not make them terrorists.
    As a former Member of Congress, I understand the delicate 
balance between national security and our obligation to help 
the neediest. This bill does not change or undermine our 
ability to keep anyone out of the country if we believe them to 
be a threat.
    It just prevents us from automatically turning away the 
most harmed individuals, those who are often the victims of 
terrorism.
    The legislation will also require an annual review to 
ensure that grants provided to help settle refugees will cover 
the true costs involved.
    Finally, I want to talk about the bill's provision to 
address one of the most compelling and least understood and, 
yet, solvable global issues that relates to what we are talking 
about today, and that is statelessness.
    There are an estimated 12 million people worldwide who do 
not have claim to any nationality. It is an existentialist 
nightmare. They are more vulnerable than refugees due to their 
near total lack of ability to exercise their human rights.
    Currently, there is no pathway for the 4,000 stateless 
people in the U.S. to gain lawful status, and this bill would 
allow them to apply for legal permanent residency here and 
obtain the right to a nationality.
    My statement refers to a case of a woman named Tatianna, 
who was born in the former Soviet Union, came to this country 
because of political repression; and has no country because of 
the change in citizenship laws after the Soviet Union broke up.
    She has to check in with the Department of Homeland 
Security, but she never knows what might happen when she goes 
to DHS and lives in fear that she could be arbitrarily jailed.
    She is a person without a country. There are about 4,000 of 
those in the United States, an eclectic group of people from 
all different parts of the world. There is no one place that 
necessarily a majority come from.
    And we are delighted to see that this bill provides a way 
for these people to enter the chain to get their status as a 
permanent resident or ultimately a refugee, defined.
    This is a matter of great personal distress to a lot of 
families who are truly people without a country.
    I thank you very much for allowing me to testify, and my 
entire statement goes into much greater detail on everything I 
have said.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Glickman appears as a 
submission for the record.]
    Chairman Leahy. I appreciate. I have read the statement, 
and I appreciate having it. The example you use is, 
unfortunately, not the only person who has that same or has a 
similar type of history and one of the things that we want to 
correct.
    I am glad to have my fellow Vermonter, Patrick Giantonio, 
here. Not all Italian-Americans in Vermont have to have the 
first name of Patrick, but the two of us do.
    He is the Executive Director of Vermont Immigration and 
Asylum Advocates, formerly Vermont Refugee Assistance; a 
graduate of Goddard College. He has worked with the legal needs 
of asylum-seekers, refugees and immigrants for more than 15 
years; fully accredited representative under the Board of 
Immigration Appeals; 1984 to 1989, lived and worked in Central 
and East Africa and, I think probably as a result, speaks 
KiSwahili--sorry, you can pronounce it better than I can--and 
French; basic level competence of Lingala--and I have no idea 
what that language is.
    He is a cofounder of New England Survivors of Torture and 
Trauma Program.
    I thank you for being here, and it is good to see you 
again.

  STATEMENT OF PATRICK GIANTONIO, EXECUTIVE DIRECTOR, VERMONT 
     IMMIGRATION AND ASYLUM ADVOCATES, BURLINGTON, VERMONT

    Mr. Giantonio. Thank you, Senator. I would like to give my 
deepest thanks to you, Senator Leahy, and, also, to the Senate 
Judiciary Committee for inviting me to testify before you 
today.
    It is a great honor to be here and to testify in support of 
the Refugee Protection Act of 2010. This bill, I believe, will 
usher in practical, secure, and much needed changes to our 
refugee and asylum systems.
    On this 30th anniversary of the Refugee Act of 1980, it is 
an appropriate time to pause and reflect on just who these 
asylum seekers are and why we should care about them. It is 
also a time to reaffirm our commitment to maintain an asylum 
system that welcomes those who have fled persecution and 
torture.
    This was the case for one of our clients, a 29-year-old 
mother of three from the Republic of Congo, who was arrested, 
detained, accused of anti-government activities because of her 
ethnicity, tortured and raped repeatedly by military officers 
for more than a year before escaping and finding her way to the 
U.S. to seek asylum.
    Most of these individuals never planned or intended to come 
to the United States. Their path to security is often a 
frightening epic journey that leaves their loved ones and all 
they have known behind.
    These are the asylum seekers that we are talking about and 
why the Refugee Protection Act of 2010 is so important to pass 
and sign into law.
    Regarding the 1-year filing deadline, most individuals in 
this room will likely recall that the 1-year deadline to apply 
for asylum was enacted in 1996, with the original intention of 
preventing fraud, such as the filing of frivolous asylum 
claims, to delay removal and gain a work authorization, as well 
as to address the substantial backlog, which, by 1994, had 
reached approximately 425,000 cases.
    Actually, though, by 1996, INS had already implemented 
procedures that addressed issues of fraudulent applications and 
imposed new restrictions on work authorizations for asylum 
seekers.
    Importantly, the legislative intent in 1996 was very clear 
that the 1-year filing deadline should not bar legitimate 
asylum applicants from receiving protection.
    In 1996, Senator Orrin Hatch assured the Senate with the 
following quote--``I am committed to ensuring that those with 
legitimate claims of asylum are not returned to persecution, 
particularly for technical deficiencies. If the time limit is 
not implemented fairly, I will be prepared to revisit this 
issue in a later Congress,'' end quote.
    Reasons for late filing of an asylum application can be 
related to fear of revealing the basis of the persecution, such 
as domestic or sexual abuse, sexual orientation, lack of 
counsel, trauma related to torture, or loss of family and home.
    The application of the 1-year rule has been rigid and has 
led to a constellation of unintended consequences both for 
applicants and for the asylum system. Thousands of meritorious 
asylum claims have been denied protection and returned into the 
hands of their persecutors simply because of not meeting the 1-
year filing deadline.
    Many of those who were denied asylum were then granted 
withholding of removal or protection under the Convention 
Against Torture, both of which require a higher standard of 
proof than asylum.
    It is indisputable that the 1-year filing deadline has been 
needlessly contributing to the enormous burden and backlogs of 
our crippled immigration court system. Repealing the 1-year 
filing deadline would increase efficiency and save resources, 
increase the level of protection for asylum seekers, and 
maintain the U.S. commitment not to return bona fide refugees 
to persecution.
    In closing, I believe that the changes proposed in the 
Refugee Protection Act are a very sensible and comprehensive 
package of much needed changes to law that will restore and 
ensure integrity and true protection in our refugee and asylum 
systems, without compromising security.
    Maintaining integrity and efficiency in these systems 
should not be a Republican or Democratic issue. Our commitment 
to welcome refugees who have fled their homeland should also be 
nonpartisan.
    By passing this bill and offering fair treatment and safe 
haven to refugees, we can illustrate to the world and to our 
own citizens our strength, our confidence, and our compassion. 
Most importantly, we should continue, through our laws and 
through our actions, to be the spire of light that elicits hope 
and safety as we embrace and welcome the persecuted into our 
homes, our cities, and our communities.
    Mr. Chairman and Committee members, I believe this bill 
moves us forward decidedly toward achieving these goals.
    Thank you.
    [The prepared statement of Mr. Giantonio appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, and thank you for 
coming down to testify.
    Mr. Giantonio. Thank you, Senator.
    Chairman Leahy. Now, as I mentioned earlier, Mr. Timofeyev 
served as Special Advisor on Refugees and Asylees at the 
Department of Homeland Security during George W. Bush's 
Administration.
    What I did not mention earlier, he originally came to the 
United States as a refugee. He is currently an associate at the 
law firm of Paul, Hastings.
    We welcome you here today. Thank you for coming by.

  STATEMENT OF IGOR V. TIMOFEYEV, ASSOCIATE, PAUL, HASTINGS, 
             JANOFSKY & WALKER, LLP, WASHINGTON, DC

    Mr. Timofeyev. Thank you. Chairman Leahy, Senator Sessions, 
thank you for the opportunity to testify before you today about 
the Refugee Protection Act of 2010 and about the United States' 
policy with respect to refugees and asylees.
    I offer my views as the former Special Advisor for Refugee 
and Asylum Affairs and the former Director of Immigration 
Policy at the Department of Homeland Security, positions I held 
between February 2006 and October 2008. I would like to note, 
moreover, that I appear here today in my personal capacity.
    As a nation founded by immigrants, the United States has a 
proud history of welcoming individuals who sought to escape 
political, religious, or ethnic persecution. Historically, the 
United States has been the largest recipient of refugees in the 
world, accepting more refugees than all other countries 
combined.
    I am proud to count my own family as a part of this 
heritage. My great-grandfather and his family arrived in the 
United States around the turn of the 20th century as Jewish 
immigrants from Russia, seeking to escape then-rampant anti-
Semitism.
    My immediate family and I made a similar journey about a 
century later, when we left the then-Soviet Union to seek 
asylum in the United States.
    We must remain a welcoming home to refugees and asylum-
seekers. But we must ensure that the immigration law remains a 
useful tool in our counterterrorism and immigration enforcement 
efforts.
    The executive branch must retain the flexibility to deny 
admission to the United States to dangerous individuals who 
belong to or support terrorist organizations. The executive 
agencies must also be able to remove expeditiously from the 
United States individuals who do not have a valid protection 
claim.
    Finally, our refugee program must be able to react to 
unexpected events, such as a sudden refugee crisis abroad.
    In my view, many provisions of the proposed legislation 
would deprive the Executive of the necessary flexibility in ths 
areas, and many of the bill's aims can be accomplished within 
the existing legislation.
    I will focus on the following examples: the terrorism 
inadmissibility provisions, the detention and removal 
procedures, and the requirements pertaining to the U.S. refugee 
program.
    With respect to the first, the bill would make two profound 
changes. First, the bill would eliminate the concept of 
undesignated Tier III terrorist organization. Second, it would 
exempt from a definition of material support any activity 
committed under duress.
    The current law, however, already provides the Executive 
with authority to exempt individuals covered by these 
provisions from the terrorism inadmissibility bars. Both the 
Bush and the Obama Administrations have exercised this 
authority.
    The proposed changes would, however, restrict the 
Executive's ability to respond to the rapidly mutating nature 
of terrorist threats. Terrorist organizations form, break down, 
and regroup without much notice, and their exact identity may 
not become known until well after the fact.
    A formal designation process would not be able to keep up 
with the shifting identities of the terrorist world. Similarly, 
the Executive would no longer be able to evaluate the case-
specific circumstances of duress claims--something permitted by 
the current waiver process.
    Many of the bill's provisions with respect to immigration 
detention and removal are commendable goals, such as the 
establishment of secure alternatives to detention or the 
provision of quality medical care.
    These standards, however, are best effectuated through 
administrative guidelines. Thus, I question the wisdom of 
codifying in law DHS's five-months-old parole policy for 
individuals in immigration detention, rather than giving DHS 
the opportunity to evaluate the effectiveness of that policy 
and to modify and improve it if necessary.
    The Committee should also consider the resource 
implications of some of the provisions, such as the immigration 
court review of parole determinations or the relaxation of 
review standard for removal orders. These provisions risk 
further burdening the already taxed immigration courts and 
Federal courts of appeals.
    Finally, I would recommend against transforming the annual 
Presidential determination as to refugee admissions into a 
rigid goal instead of a flexible ceiling. While the United 
States should seek to admit as many individuals in need of 
protection as possible, a strict legislative quota would limit 
the Executive's ability to respond to unanticipated refugee 
crises and ignores security and political contingencies of 
refugee processing.
    As we strive to maintain and improve refugee and asylum 
programs, we should not limit the Executive's ability to adjust 
these programs as required by circumstances.
    This is particularly important given these programs' close 
interrelationship with the issues of national security and 
immigration enforcement and the need to react quickly to 
humanitarian crises abroad.
    I thank the Committee for the opportunity to share my 
thoughts on ths important issues. I thank Chairman Leahy and 
Senator Sessions for your attention to this issue. I refer the 
Committee to my full written statement, and I would be pleased 
to answer any questions.
    [The prepared statement of Mr. Timofeyev appears as a 
submission for the record.]
    Chairman Leahy. Thank you. And all of the full statements 
will be placed in the record.
    I would also like to submit to the record a letter 
coordinated by Human Rights First, with 180 organization and 
individual signatures, in support of the Refugee Protection 
Act, and the statements of a number of refugee and asylum 
groups, the Advocates for Human Rights, American Jewish 
Congress, Amnesty International, Church World Service, Hebrew 
Immigrant Aid Society, Human Rights First, Human Rights Watch, 
International Rescue Committee, Kurdish Human Rights Watch, 
Lutheran Immigration and Refugee Service, National Immigrant 
Justice Center, Physicians for Human Rights, Refugee Women's 
Network, Survivors of Torture International, Tahirih Justice 
Center, the United Nations High Commission for Refugees, and 
others.
    [The information appears as a submission for the record.]
    Chairman Leahy. Let me begin, Mr. Giantonio, with you. The 
1-year filing deadline was deemed unnecessary by the 
Immigration and Nationality Service back in 1996, when it was 
enacted. Then at the INS, and now at DHS, we have asylum 
adjudicators who are trained to root out fraudulent or 
frivolous applications, and they do identify some that are 
fraudulent or frivolous.
    In practice, the 1-year deadline has unnecessarily barred 
genuine applicants from gaining the benefits of our asylum law.
    My question is this. You have vast experience representing 
asylum seekers before the agency. Are you aware of cases in 
which the 1-year deadline prevented genuine asylum seekers from 
winning protection, and how would repeal of the deadline affect 
your clients?
    Mr. Giantonio. Thank you, Senator. My response to your 
question is a definitive yes. I am aware of many, many, a 
multitude of cases nationally that have been denied asylum 
because of the 1-year filing deadline. And as I said in my oral 
statement, many cases have then been granted withholding of 
removal or protection under the Convention Against Torture, 
which, as I said, has a higher standard of proof.
    So it is very clear that, nationally, many asylum seekers 
are being denied asylum and many also have been returned into 
the hands of their persecutors simply due to not meeting the 1-
year filing deadline.
    The second part of your question, what--and, excuse me, can 
that be rephrased? Was it what----
    Chairman Leahy. If you repealed this deadline, how would 
that affect your clients?
    Mr. Giantonio. In a real world picture, the way that would 
affect our clients is that many of our clients--when I meet 
with an individual who is applying for asylum, the first thing 
that I tell them is that this is going to be one of the most 
rigorous processes that you are ever going to go through in 
your life and be prepared for that.
    Many of our clients are--the impact on many of our clients 
of the 1-year filing deadline is that individuals who come to 
us, if they are close to filing, if they are close to being in 
the United States for 1 year, for most attorneys and advocates, 
they have to work very quickly to try and assemble a very 
thorough case and it does not do the applicant any good, it 
does not do the advocates any good, as well.
    I think that repealing that 1-year filing deadline--as I 
said, the reasons why the 1-year filing deadline was enacted 
were really resolved years ago by 1996.
    Also, the original Congressional intent of the 1-year 
filing deadline has really been violated by returning 
individuals into the hands of their persecutors.
    There is also--as I had said in my oral statement, there 
are multiple processes to detect and prevent fraud in the----
    Chairman Leahy. As I said in the question, the asylum 
officers are trained to do that, because some do try to file 
frivolous applications, but they are usually pretty easy to 
weed out.
    Mr. Giantonio. They are trained and I think that one thing 
that is important to note is that while this year is the 30th 
anniversary of the Refugee Act, it is also the 20th anniversary 
of the development of the enactment of the Asylum Corps. And 
the Asylum Corps and the Asylum Office is a very effective and 
efficient way to adjudicate asylum claims.
    Chairman Leahy. Secretary Glickman, you spoke of the overly 
broad definition of material support to terrorist organizations 
and talked about how somebody who has actually been a victim of 
the terrorist organization, coerced to assist the organization, 
is then barred from protection as refugees.
    Senator Kyl and I worked together in 2007 to give DHS the 
authority to provide waivers and exemptions in material support 
cases. It requires Federal agencies to examine individual 
organizations, to find out whether there is an overly broad 
definition of terrorist.
    Now, you served 18 years in the House. You know the 
legislative process as well as I do. Can we redraft the statute 
in a way that would allow for genuine refugees and still 
prevent supporters of terrorism from entering the U.S.?
    Mr. Glickman. Senator, I think we can. I think your bill 
actually does that. I recognize the complexity of the balancing 
of interests here to ensure that we do not open the door to 
people who would want to do great harm to our country and by 
the way, most refugees have been such for years and years under 
horrendous conditions.
    The ability to analyze their individual cases to determine 
if they are eligible or not, I think, can be done under the 
legislative model that you have proposed. The current process 
has not been implemented very quickly and I think your 
legislative proposal does a lot to try to regularize that.
    But it is important to recognize that your legislation will 
not in any way open the door to terrorists coming into this 
country. The standards for our government to review these 
people on an individual basis would be unchanged.
    Chairman Leahy. And, Mr. Timofeyev, you mentioned the 
waiver and exemption authority to the material support bar. 
Those amendments were written by Senator Kyl and myself.
    You are correct in saying the implementation of the waiver 
process has been slow; 6,000 cases are still stuck in limbo. 
That is why I tend to disagree with you that a change in the 
statute is unnecessary.
    But I think there is one area we should agree on. You 
mentioned the waiver authority can be improved for individuals 
in immigration court proceedings.
    What are some of the things that they could do to improve 
it? Assuming we keep with the present law, what are some of the 
things we could do to improve it and get past that 6,000 case 
backlog?
    Mr. Timofeyev. Mr. Chairman, first, I would like to note 
that I agree with Mr. Glickman that, I think, in this area, you 
have to proceed very carefully because of the important 
considerations of national security.
    And I think whenever you have a provision in the law which 
is admittedly broad, it also means it gives the government a 
broader or better ability to actually keep the people who we do 
not want in this country out.
    With respect to your immediate question, I agree, as you 
mentioned, that the waiver process should have been implemented 
faster. I think, particularly, from 2006, when I was in the 
Bush Administration, we slowly put that process underway.
    I think now the executive has significant history, 
significant experience in how to operate that process in a way 
that comports with national security, but allows admission and 
application of waivers to deserving individuals.
    I think with respect to, specifically, immigration court 
processing, one suggestion I would make, which I do not believe 
is yet the case, is I think there should be a way to allow for 
an adjudication of these waivers early in the process, not 
waiting until an individual who is in removal proceedings has 
his final order of deportation.
    I think it should be feasible to have a system where the 
consideration of whether or not that individual is eligible for 
a waiver of material support of other terrorist admissibility 
bars can be made early in the process.
    I think that is one concrete suggestion that under the 
legislation that, as you mentioned, you and Senator Kyl worked 
on, the executive currently has authority to do.
    Chairman Leahy. Senator Sessions. And then Senator Franken 
is going to take over for me, because I have to go back to the 
floor. You remember those days, Dan.
    Senator Sessions. Thank you.
    Thank you, Mr. Chairman. You have got too many leadership 
roles in the Senate. And we would be glad to take a few of 
those, if you would like to give any away.
    [Laughter.]
    Senator Sessions. A few crumbs for the opposition.
    Chairman Leahy. The subtlety of that offer.
    Senator Sessions. Mr. Timofeyev, I appreciate your 
experience as Director of Immigration Policy and Special 
Advisor for Refugee and Asylum Affairs at DHS, and I know 
President Bush believed in and supported lawful immigration and 
was generous about it.
    But let us talk about--first, would you share with me as 
succinctly as you can, I do not want to delay my colleague, but 
the practical difficulties that are presented to our 
governmental representatives when someone appears and says ``I 
am an asylee'' or ``I am a refugee, let me in, and I want to be 
an American citizen? ''
    As a practical matter, is there a need for some clarity in 
our legal requirements for that?
    Mr. Timofeyev. Senator Sessions, I agree. I think you 
spotted one of the significant problems in asylum processing 
and then in this bill.
    The problem is that right now, as you, Senator, know fully 
well, we have still a tremendous pressure on the southern 
border, because of illegal immigration. And while we need to 
have measures in place where individuals who are legitimate can 
come in and seek asylum, we also should realize that it is very 
easy for someone to, as you put it, just show up and say: 
``Look, I would like to seek asylum.''
    So I think the difficultly is when you are presented with 
an individual who arrives at the checkpoint or who is 
apprehended even trying to illegally cross the border, you 
often have no idea who that individual is, what is his 
identity, whether he really is a legitimate seeker from 
persecution or whether he wants to come into the U.S. because 
of economic or other reasons.
    And I think it is tremendously difficult, particularly for 
members of the Border Patrol or Customs and Border Service to 
make those evaluations. Indeed, they often cannot.
    The measures that currently are in place is when someone 
shows up and he exhibits a fear of returning to his country, 
they call a professional asylum officer who does a very 
preliminary screening and then that individual, if the 
screening indicates that, indeed, the individual may have such 
a fear, is referred to the immigration court system, where a 
more formal cross-adversarial process can----
    Senator Sessions. Just to interrupt. So if a person, even 
at the southern border, is apprehended unlawfully crossing, if 
they say ``I am seeking asylum'' or ``I am a refugee. I will be 
under threat if you return me home,'' what does a young Border 
Patrol officer do at that point?
    Mr. Timofeyev. He has to then refer that individual to a 
member of the Citizenship and Immigration Services Asylum Corps 
and then an asylum officer will perform what is called a 
credible fear screening, which evaluates--does a surface 
evaluation of--whether that fear is genuine.
    It is not meant to be a full asylum adjudication. It is 
meant to be kind of a preliminary threshold glance. And over 
the years, many of the individuals who indeed showed up and 
said ``I am afraid to return'' were referred to the credible 
fear screening.
    The asylum officer then concluded that the fear was really 
not genuine. So I think that indicates to you--certainly, it 
indicated to us, when I was in the government--that many of 
these preliminary claims are, indeed, not the valid ones.
    Senator Sessions. And then once that--let us say the 
officer found that was not a legitimate claim and they say 
``You must be deported,'' can they appeal that? Is there any 
appeal from that?
    Mr. Timofeyev. Yes. There is a system of expedited removal, 
which allows for a faster removal of such individuals from the 
United States.
    And so I think there is some limited appeal from that. I 
think that is what allows the border authorities to extradite 
those people quickly outside of the country.
    An individual who does have a credible fear screening, he 
is then referred to the immigration court system for a more 
thorough evaluation.
    Senator Sessions. Then a trial of some kind can occur. We 
have got thousands of cases, I understand, pending around the 
country on these kind of matters, do we not? Do you have any 
idea what the number might be?
    Mr. Timofeyev. I do not know, Senator. I do not know the 
exact number. I do know that a lot of studies have been 
conducted recently by the American Bar Association, which 
showed a great magnitude of cases within the immigration court 
system.
    I can also speak from personal experience that there are a 
lot of immigration cases in the Federal courts of appeals. I 
have clerked for a judge, now chief judge of the Ninth Circuit, 
and it is one circuit that has a tremendously crushing workload 
of immigration cases.
    Senator Sessions. Well, it is a difficult thing and to the 
extent--I think we have to recognize that every person that is 
threatened in their home country, every person that is a member 
of an ethnic group that is not being fairly treated, every 
person that is in a political party that is losing out and 
under pressure cannot be automatically admitted to the United 
States in unlimited numbers, or you could have the situation of 
Iraq or Afghanistan.
    If those wars go badly and Taliban takes over, we could 
have millions of people who would be under some danger perhaps 
because they work with us.
    Reality tells us that we are not able to solve every 
problem in the world and we have high duties and 
responsibilities to be an effective advocate for people who are 
being oppressed.
    I am sure you felt like President Bush was aggressive in 
standing up for the oppressed around the world. I thought he 
was.
    But at any rate, it just puts numbers and pressures on us 
that we have to be honest about. Most people do not like to 
talk about it, but we have to be honest about it.
    What can we do? How many can we accept? Canada has some 
good provisions, I think. They set aside a certain number of 
their slots each year for those who are asylum seekers and are 
proud of their heritage, like we are. It is not a whole lot 
different, I think, than ours.
    With regard to the terrorist matter, this legislation does 
change the law. Under current law, the wife of or children of 
Osama Bin Laden or leaders of Hezbollah or Hamas cannot be 
admitted to settle in this country.
    So the bill, as we read it, would repeal or eliminate this 
bar. It does allow--the current law allows the Executive Branch 
the discretion to waive this if it is unjust or excessive in 
the situation.
    And maybe I will ask all of you all. Am I incorrect at 
that, No. 1? And No. 2, do we really want to eliminate this bar 
since we know we cannot allow everybody into the country and 
would we not do well to be more cautious about those who 
associated with terrorists activities?
    Mr. Glickman.
    Mr. Glickman. As I understand it, Senator, what this bill 
would do would--right now, if you are on the waiver list, the 
government can look at these on a case-by-case basis.
    Basically, if you are not on that list, you are 
automatically disqualified. So what the bill would do is it 
would simplify the waiver authority. So if you are in this 
particular class, you would be eligible for entry as a refugee, 
but you would still have to go through all of the individual 
basis for determination of whether you can come into this 
country or not.
    This bill would not permit anybody automatic entry in the 
United States. You still have to go through all of the security 
processes, fingerprinting. Refugees are often the most reviewed 
and inspected people of any immigrants in this country.
    I think the concern has been the current process, the 
waiver authority is slow and episodic and has not resulted in 
any kind of clear way, and people have been held back 
unnecessarily.
    So what we are saying is if you are in a group of people, 
you ought to be eligible and not have to prove were you 
persecuted. But you still must go through the vetting process. 
That is unchanged.
    Senator Sessions. Mr. Giantonio, would you like to comment 
on that?
    Mr. Giantonio. Excuse me, Senator. I think I will just 
defer that question to Dan Glickman. Thank you.
    Senator Sessions. And, Mr. Timofeyev.
    Mr. Timofeyev. Senator Sessions, I think right now, under 
the current law, if someone is a member or provided support to 
an organization which has not been formally designated by name, 
that individual is inadmissible, unless there is a waiver.
    And the waiver is applied in two ways. They currently apply 
to groups that we looked at and we said, ``Look, these are 
really groups that are freedom fighters,'' for example, like 
the Alzados who fought against Fidel Castro in Cuba.
    These are groups that the U.S. supported. So if you are a 
member of that group, if you provide support to them, you can 
come into the U.S. automatically.
    The waivers also apply to any member or any individual who 
provided support to an undesignated Tier III group under 
duress. So all of those individuals can automatically come in.
    Under the proposed legislation, I think the biggest problem 
is that these individuals who provided support to undesignated 
groups will no longer be barred. So the government will have to 
know who are the terrorist groups that exist, what is their 
name, and they will have to put them on the formal Tier One or 
Tier Two list.
    And the problem is that we quite often do not know the 
exact identity of a terrorist group. So I think it is a 
question of--I view it really as a question of default. I think 
the default is that the individuals who belonged to or provided 
support to organizations that have engaged in violent 
activities that we believe are likely to be terrorists, these 
individuals are inadmissible.
    We can evaluate the circumstances, either individual 
circumstances of an applicant or the circumstance of a specific 
group, and we can waive them into the country.
    So the result, I think, will be the same. The individuals 
whom we do want to come in, who are genuine refugees, we will 
allow them. But it provides a better way for the Executive, I 
think, to manage the process and to guard against individuals 
whom we really do not want.
    Senator Sessions. Thank you. Thank you, Mr. Chairman.
    I would note, for example, as I understand it, the 
Pakistani Taliban who attempted to do the bombing in New York 
was a part of the TTP, which was not designated as a terrorist, 
and Senator Schumer is demanding to know why they were not. But 
the government is not always able to keep up with that.
    Secretary Glickman, it is great to see you. Thank you for 
your leadership in so many ways and you giving your time to 
this effort. It is something Americans believe in, and we 
just--I would like to see the system work better and more 
effectively.
    Thank you, Mr. Chairman.
    Senator Franken. [Presiding.] Thank you, Senator Sessions.
    I think you kind of answered--and it is good to see you, 
Secretary Glickman. Do you want to speak to the Ranking 
Member's concern that the Bin Laden family might be allowed in?
    Mr. Glickman. Well, my judgment is that our government, 
Homeland Security, the intelligence agencies, are going to 
ensure that anybody who is a serious threat to this country is 
not going to be allowed in.
    The issue here is one really of shifting the burden a bit. 
If you are part of a Secretary of State designated refugee 
group, then you should not have to prove individually that you 
have been persecuted. Under the current waiver process, there 
is still that individual determination that is made whether you 
are a legitimate part of that persecuted group.
    But then after that, you still have to go through all of 
the rigorous steps that anybody else would have to go through 
to get in this country under refugee status.
    So I appreciate your perspective there. I think we can 
actually work this out.
    Senator Franken. Right. Mr. Glickman, I heard a terrible 
story about an Ethiopian woman who was a client of a refugee 
agency group in my state. She was suffering from depression and 
post-traumatic stress disorder, which is common for people who 
have been put through some of the awful things that asylum 
seekers have been put through.
    While she was applying for asylum, she was detained for 
over a year in a prison where she literally never saw the 
outdoors and was commingled with the general convicted 
population.
    Are these kinds of conditions common and what will this 
bill do to improve them?
    Mr. Glickman. Senator, I cannot speak to the overall set of 
circumstances here, but I can tell you that one of the issues 
that we have talked about are the issues of people who come 
here under various conditions and have no country.
    They are stateless people. They may have been born into a 
place where there has been an evolution of management of that 
country. And they are totally lost. They are in an 
existentialist nightmare.
    There are millions of stateless people worldwide, almost 12 
million; but in the U.S., there are about 4,000. This woman may 
be in that status. I do not know.
    And one of the things we are recommending in this 
legislation is these people get a path to residency and 
citizenship. I do not think there is anything terribly 
controversial about that, but that is a group of these people 
that you are talking about.
    Senator Franken. Well, let me ask Mr. Giantonio about that. 
Is this common, these kind of conditions, and would this bill 
do anything to address that?
    Mr. Giantonio. Thank you, Senator. Our organization has 
worked in immigration detention since about 1993, and being 
detained in an immigration detention facility is one of the 
most difficult things that most people go through in their 
lives.
    Even after having been traumatized in their own countries, 
they come into the United States seeking protection and they 
are re-traumatized by being detained in jail-like conditions.
    There are a few jails that we work in, one jail in 
northeast New York State, Clinton County Jail, and there are a 
couple--so to answer your question, yes. The bill would--one of 
the things that the bill would do is to codify the detention 
standards to put some teeth into detention standards, which are 
very much necessary, because what we have seen has really been 
a deterioration of conditions in jails.
    There are a couple quotes that I have from a couple of our 
clients and this was--in 2008, we did a series of interviews 
with individuals, but we are always looking at detention 
conditions in our jails.
    A couple of the quotes--``I did not eat for 3 days, could 
not talk and was crying all the time.'' Another person, ``I was 
spitting blood for 3 days and never saw the doctor.'' Another 
person, ``I was verbally abused when I did not feel well enough 
to clean my room.''
    We are all aware of the DHS reforms that Secretary 
Napolitano introduced last fall. And what I wanted to say here 
today, and I asked my colleagues, who actually work and do 
legal rights presentations in our jails, if they have seen any 
reform since last year and the question is a definitive, ``No, 
we have not seen any reforms yet.''
    The conditions are terrible. The telephone systems are 
byzantine. Families are charged enormous amounts to be able 
to----
    Senator Franken. And will this bill address that?
    Mr. Giantonio. The bill does address, again, putting teeth 
and codifying the detention standards.
    Senator Franken. Thank you. Advocates in my state have 
explained that refugees or applicants for asylum will often 
adopt distant relatives or even the children of neighbors, 
because war, famine or some other catastrophe has left these 
kids totally abandoned.
    This bill allows those orphans and separated children to 
enter the country to join their adopted families. Mr. 
Giantonio, can you tell me about what is currently happening to 
these children?
    Mr. Giantonio. Again, I think I will defer that question to 
Secretary Glickman.
    Mr. Glickman. And I am going to have to defer back to you, 
because I just do not know.
    Mr. Giantonio. So the question is about--I will take a shot 
at it.
    Senator Franken. Well, my understanding is they are 
essentially being denied entry into the United States right now 
and that this will would help rectify that.
    Mr. Giantonio. Senator, I am not prepared to respond to 
that, but I think that we could respond in writing sometime in 
the near future.
    Senator Franken. Thank you. Let me ask just a general 
question for Mr. Glickman. Do you think that on the whole, our 
current asylee and refugee system complies with our obligations 
under the International Covenant on Civil and Political Rights?
    Under that law, we have an obligation to provide all non-
citizens due process and fair deportation procedures.
    Mr. Glickman. I am certainly no legal expert in this area. 
As a personal matter, I think that we can improve upon the 
current situation that we are in.
    I was just listening in your discussion before. I am 
recalling, from my old profession and your old profession, the 
movie ``The Visitor.'' Do you remember that, with Richard 
Jenkins, about the young man who----
    Senator Franken. A great movie.
    Mr. Glickman. And it demonstrated----
    Senator Franken. We are not doing movie reviews here, but--
--
    Mr. Glickman. But it demonstrated the human side. The 
mother was an American citizen or she was a resident, she was 
here legally, and the conditions during the deportation process 
were very, very difficult, indeed.
    But look, I think most of our folks who are administering 
these policies do the best that they can under the 
circumstances, but I think we can do better.
    Senator Franken. Well, thank you to all the witnesses. The 
record will remain open for a week, and this hearing is 
adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] 58223.001

[GRAPHIC] [TIFF OMITTED] 58223.002

[GRAPHIC] [TIFF OMITTED] 58223.003

[GRAPHIC] [TIFF OMITTED] 58223.004

[GRAPHIC] [TIFF OMITTED] 58223.005

[GRAPHIC] [TIFF OMITTED] 58223.006

[GRAPHIC] [TIFF OMITTED] 58223.007

[GRAPHIC] [TIFF OMITTED] 58223.008

[GRAPHIC] [TIFF OMITTED] 58223.009

[GRAPHIC] [TIFF OMITTED] 58223.010

[GRAPHIC] [TIFF OMITTED] 58223.011

[GRAPHIC] [TIFF OMITTED] 58223.012

[GRAPHIC] [TIFF OMITTED] 58223.013

[GRAPHIC] [TIFF OMITTED] 58223.014

[GRAPHIC] [TIFF OMITTED] 58223.015

[GRAPHIC] [TIFF OMITTED] 58223.016

[GRAPHIC] [TIFF OMITTED] 58223.017

[GRAPHIC] [TIFF OMITTED] 58223.018

[GRAPHIC] [TIFF OMITTED] 58223.019

[GRAPHIC] [TIFF OMITTED] 58223.020

[GRAPHIC] [TIFF OMITTED] 58223.021

[GRAPHIC] [TIFF OMITTED] 58223.022

[GRAPHIC] [TIFF OMITTED] 58223.023

[GRAPHIC] [TIFF OMITTED] 58223.024

[GRAPHIC] [TIFF OMITTED] 58223.025

[GRAPHIC] [TIFF OMITTED] 58223.026

[GRAPHIC] [TIFF OMITTED] 58223.027

[GRAPHIC] [TIFF OMITTED] 58223.028

[GRAPHIC] [TIFF OMITTED] 58223.029

[GRAPHIC] [TIFF OMITTED] 58223.030

[GRAPHIC] [TIFF OMITTED] 58223.031

[GRAPHIC] [TIFF OMITTED] 58223.032

[GRAPHIC] [TIFF OMITTED] 58223.033

[GRAPHIC] [TIFF OMITTED] 58223.034

[GRAPHIC] [TIFF OMITTED] 58223.035

[GRAPHIC] [TIFF OMITTED] 58223.036

[GRAPHIC] [TIFF OMITTED] 58223.037

[GRAPHIC] [TIFF OMITTED] 58223.038

[GRAPHIC] [TIFF OMITTED] 58223.039

[GRAPHIC] [TIFF OMITTED] 58223.040

[GRAPHIC] [TIFF OMITTED] 58223.041

[GRAPHIC] [TIFF OMITTED] 58223.042

[GRAPHIC] [TIFF OMITTED] 58223.043

[GRAPHIC] [TIFF OMITTED] 58223.044

[GRAPHIC] [TIFF OMITTED] 58223.045

[GRAPHIC] [TIFF OMITTED] 58223.046

[GRAPHIC] [TIFF OMITTED] 58223.047

[GRAPHIC] [TIFF OMITTED] 58223.048

[GRAPHIC] [TIFF OMITTED] 58223.049

[GRAPHIC] [TIFF OMITTED] 58223.050

[GRAPHIC] [TIFF OMITTED] 58223.051

[GRAPHIC] [TIFF OMITTED] 58223.052

[GRAPHIC] [TIFF OMITTED] 58223.053

[GRAPHIC] [TIFF OMITTED] 58223.054

[GRAPHIC] [TIFF OMITTED] 58223.055

[GRAPHIC] [TIFF OMITTED] 58223.056

[GRAPHIC] [TIFF OMITTED] 58223.057

[GRAPHIC] [TIFF OMITTED] 58223.058

[GRAPHIC] [TIFF OMITTED] 58223.059

[GRAPHIC] [TIFF OMITTED] 58223.060

[GRAPHIC] [TIFF OMITTED] 58223.061

[GRAPHIC] [TIFF OMITTED] 58223.062

[GRAPHIC] [TIFF OMITTED] 58223.063

[GRAPHIC] [TIFF OMITTED] 58223.064

[GRAPHIC] [TIFF OMITTED] 58223.065

[GRAPHIC] [TIFF OMITTED] 58223.066

[GRAPHIC] [TIFF OMITTED] 58223.067

[GRAPHIC] [TIFF OMITTED] 58223.068

[GRAPHIC] [TIFF OMITTED] 58223.069

[GRAPHIC] [TIFF OMITTED] 58223.070

[GRAPHIC] [TIFF OMITTED] 58223.071

[GRAPHIC] [TIFF OMITTED] 58223.072

[GRAPHIC] [TIFF OMITTED] 58223.073

[GRAPHIC] [TIFF OMITTED] 58223.074

[GRAPHIC] [TIFF OMITTED] 58223.075

[GRAPHIC] [TIFF OMITTED] 58223.076

[GRAPHIC] [TIFF OMITTED] 58223.077

[GRAPHIC] [TIFF OMITTED] 58223.078

[GRAPHIC] [TIFF OMITTED] 58223.079

[GRAPHIC] [TIFF OMITTED] 58223.080

[GRAPHIC] [TIFF OMITTED] 58223.081

[GRAPHIC] [TIFF OMITTED] 58223.082

[GRAPHIC] [TIFF OMITTED] 58223.083

[GRAPHIC] [TIFF OMITTED] 58223.084

[GRAPHIC] [TIFF OMITTED] 58223.085

[GRAPHIC] [TIFF OMITTED] 58223.086

[GRAPHIC] [TIFF OMITTED] 58223.087

[GRAPHIC] [TIFF OMITTED] 58223.088

[GRAPHIC] [TIFF OMITTED] 58223.089

[GRAPHIC] [TIFF OMITTED] 58223.090

[GRAPHIC] [TIFF OMITTED] 58223.091

[GRAPHIC] [TIFF OMITTED] 58223.092

[GRAPHIC] [TIFF OMITTED] 58223.093

[GRAPHIC] [TIFF OMITTED] 58223.094

[GRAPHIC] [TIFF OMITTED] 58223.095

[GRAPHIC] [TIFF OMITTED] 58223.096

[GRAPHIC] [TIFF OMITTED] 58223.097

[GRAPHIC] [TIFF OMITTED] 58223.098

[GRAPHIC] [TIFF OMITTED] 58223.099

[GRAPHIC] [TIFF OMITTED] 58223.100

[GRAPHIC] [TIFF OMITTED] 58223.101

[GRAPHIC] [TIFF OMITTED] 58223.102

[GRAPHIC] [TIFF OMITTED] 58223.103

[GRAPHIC] [TIFF OMITTED] 58223.104

[GRAPHIC] [TIFF OMITTED] 58223.105

[GRAPHIC] [TIFF OMITTED] 58223.106

[GRAPHIC] [TIFF OMITTED] 58223.107

[GRAPHIC] [TIFF OMITTED] 58223.108

[GRAPHIC] [TIFF OMITTED] 58223.109

[GRAPHIC] [TIFF OMITTED] 58223.110

[GRAPHIC] [TIFF OMITTED] 58223.111

[GRAPHIC] [TIFF OMITTED] 58223.112

[GRAPHIC] [TIFF OMITTED] 58223.113

[GRAPHIC] [TIFF OMITTED] 58223.114

[GRAPHIC] [TIFF OMITTED] 58223.115

[GRAPHIC] [TIFF OMITTED] 58223.116

[GRAPHIC] [TIFF OMITTED] 58223.117

[GRAPHIC] [TIFF OMITTED] 58223.118

[GRAPHIC] [TIFF OMITTED] 58223.119

[GRAPHIC] [TIFF OMITTED] 58223.120

[GRAPHIC] [TIFF OMITTED] 58223.121

[GRAPHIC] [TIFF OMITTED] 58223.122

[GRAPHIC] [TIFF OMITTED] 58223.123

[GRAPHIC] [TIFF OMITTED] 58223.124

[GRAPHIC] [TIFF OMITTED] 58223.125

[GRAPHIC] [TIFF OMITTED] 58223.126

[GRAPHIC] [TIFF OMITTED] 58223.127

[GRAPHIC] [TIFF OMITTED] 58223.128

[GRAPHIC] [TIFF OMITTED] 58223.129

[GRAPHIC] [TIFF OMITTED] 58223.130

[GRAPHIC] [TIFF OMITTED] 58223.131

[GRAPHIC] [TIFF OMITTED] 58223.132

[GRAPHIC] [TIFF OMITTED] 58223.133

[GRAPHIC] [TIFF OMITTED] 58223.134

[GRAPHIC] [TIFF OMITTED] 58223.135

[GRAPHIC] [TIFF OMITTED] 58223.136

[GRAPHIC] [TIFF OMITTED] 58223.137

[GRAPHIC] [TIFF OMITTED] 58223.138

[GRAPHIC] [TIFF OMITTED] 58223.139

[GRAPHIC] [TIFF OMITTED] 58223.140

[GRAPHIC] [TIFF OMITTED] 58223.141

[GRAPHIC] [TIFF OMITTED] 58223.142

[GRAPHIC] [TIFF OMITTED] 58223.143

[GRAPHIC] [TIFF OMITTED] 58223.144

[GRAPHIC] [TIFF OMITTED] 58223.145

[GRAPHIC] [TIFF OMITTED] 58223.146

[GRAPHIC] [TIFF OMITTED] 58223.147

[GRAPHIC] [TIFF OMITTED] 58223.148

[GRAPHIC] [TIFF OMITTED] 58223.149

[GRAPHIC] [TIFF OMITTED] 58223.150

[GRAPHIC] [TIFF OMITTED] 58223.151

[GRAPHIC] [TIFF OMITTED] 58223.152

[GRAPHIC] [TIFF OMITTED] 58223.153

[GRAPHIC] [TIFF OMITTED] 58223.154

[GRAPHIC] [TIFF OMITTED] 58223.155

[GRAPHIC] [TIFF OMITTED] 58223.156

[GRAPHIC] [TIFF OMITTED] 58223.157

[GRAPHIC] [TIFF OMITTED] 58223.158

[GRAPHIC] [TIFF OMITTED] 58223.159

[GRAPHIC] [TIFF OMITTED] 58223.160

[GRAPHIC] [TIFF OMITTED] 58223.161

                                 <all>

</pre></body></html>
